<html>
<title> - MARKUP OF H.R. 2153, H.Res. 189, H.Res. 230, H.R. 1771, H.Res. 410, H.Res. 349, H.R. 4754, S. 178, H.Res. 585, H.R. 554, H.R. 2881, H.R. 3763, H.Res. 446, H.R. 1819, H.R. 4802, H.R. 4862, H.Res. 649, H.Res. 546</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
  MARKUP OF H.R. 2153, H.Res. 189, H.Res. 230, H.R. 1771, H.Res. 410, 
 H.Res. 349, H.R. 4754, S. 178, H.Res. 585, H.R. 554, H.R. 2881, H.R. 
 3763, H.Res. 446, H.R. 1819, H.R. 4802, H.R. 4862, H.Res. 649, H.Res. 
                                  546

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2019

                               __________

                           Serial No. 116-76

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
 


       Available:  http://www.foreignaffairs.house.gov/,
                        http://docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                              ______

               U.S. GOVERNMENT PUBLISHING OFFICE 
 38-183 PDF             WASHINGTON : 2020                       
                       
                       
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas


                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                    MEASURES AND AMENDMENTS EN BLOC

H.R. 2153........................................................     2
Amendment in the Nature of a Substitute to H.R. 2153 offered by 
  Mr. Engel......................................................    16
H.Res.189........................................................    17
H.Res.230........................................................    23
H.R. 1771........................................................    29
Amendment in the Nature of a Substitute to H.R. 1771 offered by 
  Mr. Engel......................................................    35
H.Res.410........................................................    40
 Amendment in the Nature of a Substitute to H.Res. 410 offered by 
  Ms. Bass.......................................................    43
H.Res.349........................................................    46
H.R. 4754........................................................    49
Amendment in the Nature of a Substitute to H.R. 4754 offered by 
  Mr. Curtis.....................................................    56
S. 178...........................................................    62
Amendment in the Nature of a Substitute to S. 178 offered by Mr. 
  Sherman........................................................    85
H.Res.585........................................................   101
H.R. 554.........................................................   105
Amendment in the Nature of a Substitute to H.R. 554 offered by 
  Mr. Wilson.....................................................   111
H.R. 2881........................................................   117
Amendment in the Nature of a Substitute to H.R. 2881 offered by 
  Ms. Spanberger.................................................   131
H.R. 3763........................................................   139
Amendment in the Nature of a Substitute to H.R. 3763 offered by 
  Mr. McCaul.....................................................   147
H.Res.446........................................................   151
Amendment in the Nature of a Substitute to H.Res. 446 offered by 
  Mr. Keating....................................................   154
H.R. 1819........................................................   155
 H.R. 4802.......................................................   157
H.R. 4862........................................................   159
H.Res.649........................................................   163
Amendment in the Nature of a Substitute to H.Res.649 offeredd by 
  Mr. Smith......................................................   167
H.Res.546........................................................   171

                   MATERIALS SUBMITTED FOR THE RECORD

Statement of Grace Meng submitted for the record from 
  Representative Sherman.........................................   178

                                APPENDIX

Markup Notice....................................................   191
Markup Minutes...................................................   193
Markup Attendance................................................   194


  MARKUP OF H.R. 2153, H.Res. 189, H.Res. 230, H.R. 1771, H.Res. 410, 
                        H.Res. 349, H.R. 4754, 
 S. 178, H.Res. 585, H.R. 554, H.R. 2881, H.R. 3763, H.Res. 446, H.R. 
           1819, H.R. 4802, H.R. 4862, H.Res. 649, H.Res. 546

                      WEDNESDAY, OCTOBER 30, 2019

                        House of Representatives

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 10 a.m., in room 
2172 Rayburn House Office Building, Hon. Eliot Engel (chairman 
of the committee) presiding.
    Mr. Engel. The committee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
committee at any point. Pursuant to Committee Rule 4, the chair 
may postpone further proceedings on approving any measure or 
matter or adopting an amendment. Without objection, all members 
may have 5 days to submit a statement or extraneous materials 
on today's business.
    As members were notified yesterday, we intend to consider 
18 bipartisan measures and amendments en bloc. Pursuant to 
notice for purposes of markup, I now call up the en bloc 
package consisting of 18 measures.
    And here are the measures: H.R. 2153, with an Engel 
amendment; H.Res.189; H.Res.230; H.R. 1771, with an Amendment 
in the Nature of a Substitute H.Res.410, with an Amendment in 
the Nature of a Substitute H.Res.349; H.R. 4754, with an 
Amendment in the Nature of a Substitute S. 178, with an 
Amendment in the Nature of a Substitute H.Res.585; H.R. 554, 
with an Amendment in the Nature of a Substitute H.R. 2881, with 
an Amendment in the Nature of a Substitute H.R. 3763, with an 
Amendment in the Nature of a Substitute H.Res.446, with a 
Keating amendment; H.R. 1819; H.R. 4802; H.R. 4862; H.Res.649, 
with an Amendment in the Nature of a Substitute H.Res.546.
    [The measures and amendments offered en bloc follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    Mr. Engel. At this time, I recognize myself to speak on 
today's business. Let me say I am pleased to support all of the 
bipartisan measures before us today, and I thank our members 
for their hard work. I will keep my remarks brief and highlight 
just a few of the 18 bills and resolutions.
    First, House Resolution 585, from Mr. Suozzi, which 
reaffirms Congress's support for historic peace that the Good 
Friday Agreement brought to Ireland. This is an issue 
particularly close to my heart. I remember my first trip as a 
Member of Congress in 1989 traveling to Ireland, traveling to 
Belfast during the dark days of The Troubles.
    The Good Friday Agreement and the fulfillment of every 
obligation under that agreement is the only way to ensure that 
those times of violence and division never return. That is why 
I am so alarmed by the current situation with Brexit which 
could reintroduce a hard border between the north and the 
Republic, a dangerous prospect not only for the peace process, 
but for the economic stability of the island and for the rights 
of the border communities.
    With this resolution, Congress sends a clear signal to the 
U.K. and the EU that any Brexit deal must protect the Good 
Friday Agreement and all its components. I strongly support 
this good measure and I hope all members will join me in moving 
it forward.
    Next, I will move on to two good measures that deal with 
5G, a technology that has the potential to revolutionize so 
many sectors from transportation to health care to 
entertainment. So there will be massive economic benefits for 
those who can quickly take full advantage of the new 
technology, but it also comes with big risks.
    As people become more dependent on wireless communications 
and generate even more data about their lives, the adoption of 
5G will bring national security, cybersecurity, and privacy 
challenges. That is why there is such broad bipartisan 
consensus that it is important to assert American leadership in 
5G technology to compete with China and others on the 
international stage and, simultaneously, to protect the 
networks of the United States and its allies from spying eyes 
and cyber-attacks.
    We have two bills in front of us today that address the 
future of 5G in a meaningful way. First, we have Ms. 
Spanberger's Secure 5G and Beyond Act of 2019, an overarching 
bill that requires the Administration to develop a security 
strategy for 5G systems and infrastructures in the United 
States, to assist allies and partners to do the same, and to 
protect the competitiveness of U.S. companies.
    And we have Ranking Member McCaul's Promoting United States 
International Leadership in 5G Act, which calls for a plan to 
promote U.S. leadership and international standard-setting 
bodies for 5G. I am pleased to support both of these measures 
that address this critical technology issue for the United 
States.
    I would also like to highlight the Keeping Girls in School 
Act authored by Ms. Frankel. When women and girls have access 
to education, they lift up entire communities with better 
health outcomes, economic well-being, and security for 
everyone. This bill calls on USAID to address the barriers to 
keeping girls in school around the world. It is a strong 
measure I am proud to support.
    Finally, I will turn to Mr. Sherman's amendment in the 
nature of a substitute to Senator Rubio's Uyghur Human Rights 
Policy Act. Mr. Sherman's amendment based on his Uyghur Act 
shows the Chinese government that Congress will not condone the 
horrific human rights abuses against the Uyghurs in western 
China.
    It builds upon the good work of Mr. Smith, Mr. Suozzi, and 
our Senate colleagues by adding sanctions and export 
restrictions to make sure U.S. technology is not being used by 
Beijing to oppress and mistreat China's ethnic and religious 
minorities. I strongly support all the measures we are 
considering today and I urge all members to join me in do the 
same.
    And I will now recognize our ranking member, Mr. McCaul of 
Texas, for his remarks.
    Mr. McCaul. Thank you, Mr. Chairman. If we could just first 
state at the outset that yesterday marked an historic day in 
the House. For the first time in over 30 years, the House took 
action and passed a bill recognizing the historic fact that the 
Armenian Genocide took place. Thirty years. And I want to thank 
my good friend from New Jersey, Mr. Smith, who has been a 
champion on this issue and for your years of hard work and 
unwavering support in getting this measure finally across the 
finish line. And I think it sends a strong message to President 
Erdogan as well.
    And I want to thank Chairman Engel for his, as usual, 
bipartisan cooperation in working together with me and my staff 
to get the Turkey sanctions bill passed in a unified voice from 
the Congress rather than a divisive voice that we see so often 
these days, a unified American voice against what Turkey is 
doing in Syria. I want to thank you for holding this hearing.
    Several important bills including the TAIPEI Act introduced 
by Mr. Curtis, and two bills authored by my good friend Mr. 
Wilson. Today we are considering my bill, the Promoting United 
States International Leadership in 5G Act. China fully intends 
to become the preeminent global power using tactics like 
hacking, cyber-attacks, intellectual property theft, and 
espionage toward its goals.
    Considering its long history of maligned behavior and 
ongoing predatory practices, China's majority control of the 
world's 5G networks, interconnected devices, and cloud storage 
is a risk that we cannot accept. We must do better. We must 
compete. My bill better protects our national security and 
strategic interests by pursuing an alternative to China's 5G 
campaign which is using State funds and predatory lending 
through the Belt and Road Initiative to increase market 
ownership of not-so-private companies like Huawei.
    Huawei, with the support and malign influence of the 
Chinese government, is projected to gain more than 50 percent--
50 percent--of control of the global marketplace and is 
positioning itself to gain even more. My bill will help the 
United States counter China's aggressive 5G expansion around 
the world by maintaining and in some cases increasing U.S. 
leadership and participation at international standard-setting 
bodies for 5G and future generations of mobile technology. It 
will provide a whole-government approach to assess the security 
risks posed by China and 5G and increase cooperation between 
the United States and its allies and partners in not only 
identifying these risks, but in countering them.
    Another important measure by the committee today will be 
advancing is the Uyghur Act, which will impose consequences for 
the Chinese Communist Party's horrific repression of the 
Uyghurs and other Muslim minorities. The world must know that 
the Communist Party's crimes against its ethnic minority 
Muslims will not go unanswered. Secretary Pompeo rightfully 
calls these horrible crimes the ``stain of the century.``
    The Administration is taking action against the Chinese 
Communist Party by imposing visa restrictions on party 
officials, sanctioning entities that help build the Party's 
technological police state, and banning products made with 
forced labor in the Party's concentration camps. More action is 
needed. The legislation before us will help today and this bill 
will help expose the Communist Party's abuses and require the 
Magnitsky sanctions against perpetrators and ensure that U.S. 
technology supply chains do not help build China's oppressive 
surveillance programs and systems across the globe.
    Mr. Chairman, I look forward to supporting these and all 
measures here today. I want to thank you again for your 
bipartisan work with me and my team and I yield back the 
balance of my time.
    Mr. Engel. Thank you, Mr. McCaul.
    Mr. Sherman.
    Mr. Sherman. I want to thank the chairman for holding this 
markup on these important issues, commend the authors on their 
bills and their leadership, and I am a cosponsor in each of the 
bills that are before us.
    I want to join the ranking member in taking a minute to 
recognize that we recognized the Armenian Genocide yesterday. I 
remember 10 years ago in this committee we passed an Armenian 
Genocide recognition bill by only one vote and then did not 
bring it to the floor because it was not certain that it would 
pass. Yesterday it passed by an overwhelming majority and 
cleansed a stain on this government and this Congress for 
failing to recognize the first genocide of the 20th century, 
for participating in Turkey's genocide denial. That all ended 
yesterday.
    I want to commend our colleagues, Schiff, Smith, Speier, of 
course Engel and McCaul, Eshoo, Pallone, But I also think we 
have to give credit to the man who was decisive in this and 
that is of course President Erdogan. Without his help we would 
not have been able to pass that resolution.
    I want to thank the chairman for bringing up the Uyghur 
bill, S. 178, authored by Senators Rubio and Menendez, which 
passed the Senate on September 11th. The House has companion 
legislation authored by our colleagues Chris Smith and Tom 
Suozzi. In February, I reintroduced, along with the Asia 
Subcommittee chair Ted Yoho and Connolly and Wagner, H.R. 1025, 
the Uyghur Intervention and Global Humanitarian Unified 
Response Act, the UIGHUR Act, spells Uighur.
    Both these bills contain very important and complementary 
measures designed to increase the profile of and counter one of 
the most important human rights issues of the present day, 
namely the detention of over one million Uyghurs and other 
Muslim minorities in Xinjiang.
    The Chinese government has sought to erase the distinct 
Uyghur Muslim culture and religious traditions through mass 
detention; reeducation; they have involved the suppression of 
the Uyghur language; intimidation of Chinese Muslim minorities 
living even outside China, preventing Muslim minorities 
including those with permanent residency status in the United 
States from leaving the region; and they have sent literally 
hundreds of thousands, at least tens of thousands of agents to 
live inside Uyghur households as a State monitor per family.
    The extent of this Chinese effort to sinofy the Muslim 
population of western China is staggering. So we have got an 
amendment in the nature of a substitute which combines 
important parts of both of the bills that I have mentioned. 
This is just a start. I want to thank the ranking member and 
chairman as well as a bipartisan staff for working together to 
put together this ANS.
    I want to highlight two provisions. One is that we identify 
those persons responsible for the repression of the Uyghurs and 
apply the Magnitsky sanctions to those individuals, the second 
is Section 9 requires the Commerce Department to update our 
export controls and ensure that the Commerce Control List, 
which covers dual list items, is updated to create a special 
regime for China and identify those items that can be used for 
surveillance, mass detention, and deny licenses for the export 
or re-export of those items.
    Our staff has worked diligently with the high-tech 
community to make sure that this is not over broad. This 
legislation is an important beginning. We need to go further. 
Most importantly, we need to ensure that our imports from China 
and the international supply chains relied upon by Western 
multinationals do not include items that are a product of slave 
labor. So I look forward to working with the committee on 
follow-on legislation and I urge the adoption of the Sherman 
ANS and the underlying S. 178.
    Finally, I want to say a few brief words about Karen Bass's 
H.Res.410 and Grace Meng's H.R. 1171, both of which deal with 
family reunifications between Korean Americans and their 
relatives in North Korea. Without objection, I would like to 
submit a statement from Grace Meng for the record. Without 
objection.
    Mr. Engel. Without objection.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Sherman. Most people do not realize there are a hundred 
thousand Korean Americans with family members in North Korea. 
While there have been 21 reunions involving South and North 
Koreans since the year 2000, Korean Americans have not been 
included in this. And especially as these individuals age, it 
is important for us to push forward toward family 
reunifications. I yield back.
    Mr. Engel. Thank you, Mr. Sherman.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. And I too 
want to thank you and Ranking Member McCaul for the historic 
day yesterday. The two bills that were up for consideration, I 
think, sent a clear message to Ankara that we are serious and 
the recognition of the Armenian Genocide embedded in the bill 
and it is just extraordinary. It has been a lot of years in the 
making.
    I want to thank Anna Eshoo especially because it was her 
idea to bring it up now. So I do want to say the bipartisanship 
in both the debate and in that vote shows a common belief based 
on facts that are unassailable that the Armenian Genocide is 
one of the most horrific events that have happened in all of 
history. And that the Turks continue their all-out effort to 
say it did not occur only brings further dishonor on Erdogan 
and on his government.
    I would also like to thank you both for bringing up 
H.Res.649, a resolution which highlights the good work and the 
development and model of the Inter-American Foundation so soon 
after it being introduced. Fifty years ago, Congress authorized 
the IAF to engage in grassroots development projects throughout 
the Western Hemisphere. IAF prizes community-led projects and 
small-scale entrepreneurship as a way to give underserved 
people a stake in their societies. It is about hand up and not 
just a hand out.
    Its sister organization, the African Development 
Foundation, and like it, leverages and encourages the financial 
and sweat equity of people in the community and has made an 
enormous difference in the lives of so many. It has a very, 
very low overhead in terms of what they use for salaries and 
the like, some 14 percent. So this is one of the best 
initiatives.
    It also promotes Feed the Future to ensure that its work 
complements but does not compete with projects of other 
agencies. I want to thank Albio Sires, the chairman, for his 
strong leadership on this Foundation for so many years and also 
my good friend and colleague Rooney, the ranking member, for 
their support for the bill.
    Let me also say I am very happy that the Uyghur Human 
Rights Policy Act is up for consideration. I introduced the 
Uyghur Human Rights Act in the last Congress and in this one. 
This year we have had 118 co-sponsors including many of the 
members of this committee, including the ranking member and 
Chairman Sherman. I want to thank them for that support. We 
even had Nancy Pelosi signing on as a co-sponsor back in 
January. So it is a bill whose time has come and it will make a 
difference.
    I have chaired or co-chaired a number of hearings on what 
the Chinese government, what Beijing, particularly what Xi 
Jinping is doing to the Uyghurs. It is--we are talking about 
concentration camps. The surveillance at all levels of their 
lives is unconscionable and is reminiscent of what the Nazis 
did in terms of rounding people up, torturing them, putting 
them into forced labor, and more has to be done to combat this.
    The bill is a comprehensive approach to try to end this 
egregious behavior on the part of the Chinese government. I 
want to commend the Trump Administration for some of its 
actions that it has taken including placing 28 government 
agencies and businesses on the Commerce Department's Entity 
List. They have raised it repeatedly, particularly Secretary of 
State Pompeo, but more has to be done worldwide.
    More has to be done by us, Congress, as well as by the 
White House because this is barbaric behavior on the part of 
the Chinese. Many of the goods that are being made there find 
their way into our stores. Recently, Costco, and we had very 
good information on this, was getting clothing for children 
that was being made in these concentration camps. So a much 
more aggressive effort needs to be made to ensure that gulag-
made labor does not find its way onto the shelves of our stores 
and outlets.
    So again, this is a good bill. You know, I would have hoped 
we would have passed our version sooner like in January, but 
that said, we are doing it now and that is a good thing. Yield 
back.
    Mr. Engel. Thank you, Mr. Smith.
    Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing. And I was here 10 years ago when we voted for the 
Armenian Genocide and I was very proud yesterday when I saw the 
400 votes on the floor for this Armenian Genocide. I remember 
the pressure that the Turkish government put on all the members 
that were on this committee to vote no, but we were still able 
to get it through with one vote.
    I also want to speak briefly about two pieces of 
legislation that are being considered today, H.Res.649 and 
H.Res.546. I want to thank my colleague from New Jersey, 
Congressman Chris Smith, for introducing an important 
resolution to support the work of the Inter-American 
Foundation. Over the last 50 years, the Inter-American 
Foundation has played a key role in advancing the economic 
development of countries in Latin America. It has achieved this 
progress by skipping over international contractors and issuing 
grants directly through local organizations.
    The Inter-American Foundation's achievement show that 
promoting economic development in Latin America not only makes 
for more prosperous societies, but also advances American 
interests. I am proud to join Congressman Smith in leading this 
resolution. I urge my colleagues to support it.
    Second, I want to thank the chairman and ranking member for 
considering the bipartisan resolution I sponsored that would 
disapprove Russia's future inclusion in the G7 Summits until it 
respects the territorial integrity of its neighbors and adheres 
to the standards of democratic societies. I introduced this 
resolution after the President expressed his intention to 
invite Putin to next year's G7 Summit, to reiterate 
longstanding congressional sentiment opposing this choice.
    Since Russia was suspended from the G8 in 2014 as a direct 
result for his aggressive actions in the Ukraine, legislation 
supporting this decision and setting requirements for Russia's 
future inclusion has been signed into law. Russia has not 
changed course but has become increasingly aggressive in the 
Ukraine and has undermined democracy in numerous other 
countries including the United States.
    This resolution shows the House of Representatives is 
adamant that Russia must meet previously set conditions before 
they are invited to participate in another Summit. I thank the 
committee for their time and I urge my colleagues to support 
this resolution.
    Mr. Engel. Thank you very much, Mr. Sires.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. We have several 
measures before us today so I will not get to all of them, but 
I would just like to focus on a few. First, as the founder, one 
of the founders and co-chairs of the congressional Taiwan 
Caucus, I want to voice my strong support for Mr. Curtis's 
TAIPEI Act. Taiwan is a critical ally in the Pacific and ought 
to be a role model for other nations across the globe.
    Last month, the Solomon Islands and Kiribati switched 
diplomatic recognition from Taipei to Beijing. The TAIPEI Act 
seeks to discourage other countries from making that same 
mistake. Unfortunately, these changes are a part of a concerted 
Chinese campaign. Since President Tsai was elected, Beijing has 
sought to undermine her presidency, to intimidate the Taiwanese 
people, and has increased its efforts to close Taiwan off from 
the international community.
    Helping Taiwan maintain its sovereignty in the face of this 
onslaught demonstrates our commitment to a free and open Indo-
Pacific. The TAIPEI Act also raises a critical question. Why we 
do not just go ahead and recognize Taiwan? The Taiwanese people 
do not want to be part of the PRC and who can blame them after 
we have seen China's blatant disregard for the rights of Hong 
Kong people over the past several months.
    Furthermore, if you pick any mark of sovereignty whether it 
is in economic, diplomatic, or governance domains, it is pretty 
clear that Taiwan has all of them. It is pretty obvious that 
Taiwan is an independent country to anybody who looks at the 
facts, and it is well past time that U.S. policy caught up with 
these facts.
    Moving on from Taiwan, I would also like to briefly voice 
my support for three other bills that I am co-sponsoring that 
we have before us today. First, the Uyghur Human Rights Policy 
Act, the House version of which was introduced by my good 
friend Chris Smith. And thank you, Chris, for your leadership 
on this and so many other issues over the years. China's 
inhumane treatment of the Uyghurs is completely dystopian and 
horrific. This legislation is critical to holding the Chinese 
government and officials to account for their campaign of abuse 
and mass arbitrary detention inflicted on the Uyghurs.
    Second, Mr. Wilson's Saudi Education Transparency and 
Reform Act, and I want to thank him for his leadership on this 
committee over the years as well, is a necessary step to ensure 
that Saudi textbooks do not encourage violence against non-
Muslim religions.
    Third, H.Res.349 reaffirms our commitment to our alliance 
with Japan. The partnership between our two great nations is 
essential to peace and security in Asia and, really, across the 
globe. It is also one of the best demonstrations that former 
enemies can put aside their hatred and buildup an enduring 
mutually beneficial friendship.
    As we face the threat of a rising China, seek to support 
democratic values and human rights, and work to bring economic 
development to the region, this alliance is critical to meeting 
our shared objectives. And, unfortunately, the relationship 
between the United States and Japan oftentimes gets overlooked 
nowadays. It should not. It is one of those that is so 
important to both countries, to the regions, and to the world. 
It ought to be an example of how former enemies really can get 
along to the mutual benefit of both societies.
    So I would urge my colleagues to support these and a number 
of other pieces of legislation before us. I thank the chairman 
and the ranking member for their leadership and yield back.
    Mr. Engel. Thank you, Mr. Chabot.
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. I thank you and 
Ranking Member McCaul for continuing to work together to bring 
forward good bipartisan measures. Those efforts were on full 
display yesterday on the House floor when we honored the memory 
of 1.5 million Armenians killed during the Armenian Genocide, 
and I commend you both for leading that effort.
    I am proud to support all of the bills this morning and to 
co-sponsor a number of them. First, I would like to thank my 
colleagues for their efforts on behalf of women and children 
and human rights, generally, around the world, especially the 
human rights abuses against the Uyghur population in China. As 
the co-chair of the congressional Study Group on Germany, I 
thank Chairman Keating for his resolution affirming strong 
U.S.-German relations and the importance of the transatlantic 
relationship.
    I thank Chairman Sires for his resolution opposing the re-
entry of Russia into the G7. Russia annexation of Crimea and 
interference in the elections of the United States, of France, 
and of other countries around the world demonstrate that it 
does not belong at the table until it acts as a responsible 
member of the international community and stops its efforts to 
undermine democracy.
    I am proud to join Mr. Wilson, the ranking member of the 
Middle East, North Africa, and International Terrorism 
Subcommittee in introducing H.R. 4802 which expands the State 
Department's Rewards for Justice program to those who provide 
information on sanctions evaders. Sanctions are only as 
effective as their enforcement. And while we know that 
sanctions are strategic tools and not a policy in and of 
themselves, this bill will ensure that we can better maintain 
the integrity of our sanctions regime and target those who seek 
to undermine U.S. and international objectives.
    And, finally, I am proud to have introduced H.R. 4862, the 
United States-Jordan Defense Cooperation Extension Act with my 
committee colleagues Mr. Wilson, Mr. Allred, Mr. Fitzpatrick, 
and our Appropriations counterparts, Chairwoman Lowey and Mr. 
Rogers. This legislation, which passed the House last Congress, 
reauthorizes the 2015 United States-Jordan Defense Cooperation 
Act, ensuring support for Jordan's security and economic 
stability.
    Jordan has been a critical partner in our efforts to defeat 
and destroy ISIS, and we all remember the horrific images of 
the Jordanian pilot downed in Syria and barbarically caged and 
burned alive. Jordan has taken in over a million Syrian 
refugees and we are grateful to Jordan for taking in their 
Syrian neighbors, and after 8 years most refugees live in host 
communities where basic services like electricity, water, and 
education are strained.
    International technical and financial assistance in 
expanding job opportunities is critical to the future of 
Jordan. The U.S. must work with international donors to help 
Jordan make the necessary forms to spur economic development. 
The Kingdom of Jordan is a strategic linchpin in the region and 
it is in the national security interest of the United States to 
help stabilize our ally Jordan. With this legislation we are 
affirming that the U.S. Congress stands by our allies. I thank 
my colleagues for the support of this and all this legislation 
and I yield back.
    Mr. Engel. Thank you, Mr. Deutch.
    Mr. Wilson.
    Mr. Wilson. Thank you, Chairman Eliot Engel and Republican 
Leader Michael McCaul for bringing these important bipartisan 
bills to mark today. I am grateful to co-sponsor many of the 
meaningful measures before us today and I am especially 
appreciative that two of my own bills will be considered here 
today.
    First to be considered is H.R. 554, the Saudi Educational 
Transparency and Reform Act of 2019, which I introduced with 
Congressman Bill Keating from Massachusetts. For too long, 
Saudi Arabia has played the role of both arsonist and 
firefighter in the fight against radicalization and violent 
extremism. While Saudi Arabia partners as a valued ally with us 
to combat terrorist groups around the world, Riyadh is also 
playing a negative role when it comes to radicalization.
    Every year, the Saudi government prints official school 
textbooks full of egregious material inciting hatred and 
violence against its own self-interest. For example, students 
are taught in one 2019 textbook that befriending Jews and 
Christians is ``a cause of God's affliction and displeasure.`` 
Another, urges children to declare ``the deceptiveness of the 
Jews.`` Another book teaches children that Zionism spreads 
``drugs and sexual diseases in many Islamic countries.``
    The material students are taught is so extreme that ISIS 
even used Saudi textbooks for its time when it seized control 
in Syria before it could publish its own materials. H.R. 554 
recognizes this problem and seeks to hold our ally Saudi Arabia 
to its repeated commitments over the past 15 years to reform 
its problematic curriculum. The bill requires an annual State 
Department report to Congress detailing any intolerant material 
in Saudi Arabia's official curriculum.
    The hope is that with increased transparency on the issue, 
Riyadh will finally move forward with its promised reform to 
reduce the radicalization that threatens families both in the 
kingdom itself and the United States.
    I also appreciate the committee working for the markup of 
another of my bills today, H.R. 4802, which I introduced with 
Chairman Ted Deutch. This bill would expand the Rewards for 
Justice program at the State Department to authorize rewards 
for individuals coming forward with information on sanctions 
evasions practices. The bill was inspired by the courageous 
Bassam Barabandi, a Syrian patriot and diplomat, who defected 
at the Syrian Embassy in Washington as he worked with anti-
regime activists to provide passports to critics of the 
criminal Assad regime which has been condemned for using poison 
gas against its own citizens.
    We are fortunate today to have First Secretary Barabandi 
with us in the audience. For years after his defection, 
Secretary Barabandi lobbied the U.S. Government with 
information on Syrian oligarchs close to Assad and their 
sanctions evasion practices including information on Samer Foz, 
who was ultimately sanctioned by Treasury this year. Secretary 
Barabandi's case highlighted the need to create a clear 
mechanism to incentivize individuals to come forward with this 
kind of vital information. H.R. 4802 will do just that and 
ultimately enhance compliance with U.S. and international 
sanctions, increase the confidence in the rule of law, and 
bring criminals in rogue regimes seeking to circumvent U.S. law 
and justice.
    I am also grateful for Congressman Jim McGovern of 
Massachusetts for working on H. Resolution 230 which condemns 
all forms of violence against children globally. I was honored 
to work with him on this important resolution. More than one 
billion children are exposed to violence around the world, with 
lasting traumas both to them individually and for the societies 
in which they live. This resolution is critical and I urge my 
colleagues to support it.
    And, last, I want to thank my colleague Chairman Ted Deutch 
for the important United States-Jordan Defense Cooperation 
Extension Act. Jordan is a valued ally that needs and deserves 
increased U.S. support. It was my privilege to work with him on 
this important bill praising Jordan's success for its citizens.
    Mr. Chairman, there simply is too many good measures here 
today to comment upon. Thank you and Republican Leader McCaul 
for this productive bipartisan markup today. I yield back the 
balance of my time.
    Mr. Engel. Thank you, Mr. Wilson.
    And Ms. Bass.
    Ms. Bass. Thank you, Chairman Engel and Ranking Member 
McCaul for bringing these bills to the committee today for 
consideration. I specifically would like to speak in favor of 
H.Res.410.
    The purpose of this resolution is to encourage reunions of 
divided Korean American families. I want to start out by 
letting you know that this resolution originated from a meeting 
where a group of constituents in my district called this issue 
to my attention. As I learned more, especially about aging 
Korean Americans who just want to be able to see their family 
members, I knew that I had to do something to help raise this 
issue.
    The division of the Korean Peninsula into South and North 
separated thousands of families, family members, many Korean 
Americans with family members in North Korea have not seen or 
communicated with those family members in more than 60 years. 
Their children have grown up here in America without knowing 
what their cousins, aunts, or uncles even look like. Over the 
years, South Korea and North Korea have arranged for selected 
groups to visit each other, but these reunions have been 
dependent on the political situations between the countries.
    Meanwhile, the situation is now growing more urgent as many 
of those separated are getting older. Many are in their late 
80's and 90's. Some separated families have taken a private 
route to contact their families in the North through third-
party brokers. These unofficial reunions can cost about $1,500, 
but the process can be faster and less dependent on the 
political climate between North and South.
    People should not have to incur these kinds of costs just 
to reach a loved one, which is why I introduced this resolution 
that calls on the United States and North Korea to begin the 
process of reuniting Korean American divided family members 
with their immediate relatives. This resolution will provide an 
official mechanism to reunite family members so people would 
not have to rely on a back-door method.
    A few months ago, I had the opportunity to meet with Kyung 
Joo Lee, a 90-year-old Korean American man from Virginia who 
has not seen his three older brothers and an older sister since 
he fled North Korea more than 70 years ago. He came into my 
office with tears streaming down his face as he held onto my 
hand and urged me to do what I can to help Korean families to 
be reunited.
    Today, I am proud to stand with my colleagues in getting 
one step closer to reunifying him and so many others with their 
families. With that I urge you to support this resolution that 
calls on the U.S. and North Korea to pursue reunions as a 
humanitarian priority of immediate concern. I also urge you to 
support H.R. 1771, the Divided Families Reunification Act, 
introduced by Representative Grace Meng that takes up the same 
issue from a different perspective. Thank you and I yield back.
    Mr. Engel. Thank you, Ms. Bass.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. I would like to voice my 
support for the following measures which I am proud to co-
sponsor: H.Res.349, reaffirming the vital role of the United 
States-Japan alliance and promoting peace, stability, and 
prosperity in the Indo-Pacific region and beyond. This 
resolution emphasizes the importance of the U.S.-Japan alliance 
and urges further strengthening of our cooperation. Japan will 
continue to serve as an important ally against authoritarian 
aggression in the Indo-Pacific region.
    H.R. 4754, the Taiwan Allies International Protection 
Enhancement Initiative, the TAIPEI Act of 2019, the U.S. 
Government should support Taiwan in strengthening its official 
diplomatic relations. We have witnessed countries like Panama, 
the Dominican Republic, El Salvador, the Solomon Islands, 
Kiribati fall victim to China's coercion and bribery. Due to 
this pressure, Taiwan currently maintains full diplomatic 
relations with only 15 nations around the world.
    And I too, like Mr. Chabot, I think it is time that the 
United States recognizes Taiwan for the country it is. This 
bill also provides that it should be the policy of the U.S. to 
support Taiwan's participation in international organizations. 
This Congress I introduced H.R. 353 to direct the Secretary of 
State to develop a strategy to regain observer status for 
Taiwan in the World Health Organization. This legislation 
passed the House unanimously.
    We are also supportive of the Uyghur Human Rights Policy 
Act of 2019. It aims to address human rights violation and 
abuses by the People's Republic of China's mass surveillance 
and internment of more than one million Uyghurs. And we had in 
this committee, we had a hearing on this where we talked about 
the armed crematoriums that they have in these facilities, and 
I think it is a repeat of history if we do not stay vigilant. 
Xi Jinping and the Chinese Communist Party continue to commit 
horrific human rights abuses against their own people.
    This oppression must not be tolerated and it is imperative 
that the U.S. Government hold the CCP accountable for these 
abuses. If not, the Chinese Communist Party will continue this 
spread of its oppression and suppression of human freedom not 
just in China, but around the world, like they have done with 
their unchecked expansion in the EC and the South China Sea 
based on their bogus nine-dash lines. They must be called out.
    H.Res. 189, recognizing the importance of sustained United 
States leadership to accelerating global progress against 
maternal and child malnutrition and supporting the United 
States Agency for International Development's commitment to 
global nutrition through its multi-sectoral nutrition program. 
Acute malnutrition continues to threaten the lives of over 50 
million children under the age of five, globally, and this 
whole of government approach will help combat global 
malnutrition because we know with malnutrition comes more 
conflicts.
    H. Resolution 446, reaffirming the German-American 
cooperation and friendship under the Wunderbar Together-Germany 
and the U.S. initiative. The German government's Wunderbar 
Together-German and the U.S. initiative highlights the 
friendship between our countries and promotes cooperation 
between our people. And I yield back.
    Mr. Engel. Thank you, Mr. Yoho.
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman. I move to strike the 
last word. I rise in support of two pieces of legislation, 
Senate Bill 178, the Uyghur Human Rights Policy Act of 2019, 
and H.R. 2153, the Keeping Girls In School Act.
    I first want to applaud Senator Rubio and Representative 
Smith for their leadership on the Uyghur issue. The Uyghur 
Human Rights Policy Act of 2019 is a bill that addresses an 
issue that I have championed on the House side through H.R. 
1025 and H.R. 649 and that I have raised in multiple Foreign 
Affairs hearings. The Chinese government's humanitarian abuses 
are well-documented and include the targeting and mass 
detention of more than a million Uyghur Muslims in internment 
camps, detentions that serve no purpose beyond punishing 
religious minorities who seek to peacefully practice their 
faith.
    We often use the phrase ``never again`` when reflecting on 
the darkest moments of the past. I believe that we have an 
obligation to remember that message right now and to think 
about what future generations will say about how we acted or 
did not act in this moment. I have met with constituents in my 
community including a Uyghur couple whose parents have been 
detained in northwest China and who are deeply concerned about 
their health, welfare, and access to medical treatment. They 
are calling on us to act on their behalf.
    As we know, public condemnation has not curtailed the 
Chinese government's abusive practices and with this bill we 
will take real action to identify the Chinese officials 
responsible for these abuses and impose sanctions upon them 
under the Global Magnitsky Act. And as China continues to 
import and use repressive surveillance and biometric 
technologies to target Uyghur Muslims, this bill will identify 
those technologies and require them to be placed on the 
Department of Commerce's Commercial Control List of items that 
require export licenses.
    This issue and the issue of human rights more broadly is of 
central importance to our bilateral relationship between the 
United States and China. I urge unanimous support for the 
Uyghur Human Rights Policy Act of 2019, and I also call on my 
colleagues to continue to raise this issue with the State 
Department so that we can get human right defenders, public 
health officials, and NGO's on the ground to provide Uyghur 
detainees with the care and treatment they need.
    I would also like to speak out on H.R. 2153, the Keeping 
Girls in School Act. As this legislation describes, 130 million 
girls around the world between the ages of 6 and 17 are not in 
school today. And compared to boys in the same age range, girls 
between 10 and 19 are three times more likely not to be in 
school. Achieving gender parity in education is not just a 
moral imperative. It is also an economic necessity for 
countries working to build more prosperous futures, because 
when girls and women have opportunity entire societies do 
better with enormous gains in economic growth, productivity, 
and innovation.
    This bill mandates that the Ambassador-at-Large for Global 
Women's Issues, a State Department post that has been vacant 
since 2017, consult with the senior coordinator for Gender 
Equality and Women's Empowerment and the senior coordinator for 
International Basic Education Assistance at USAID to carry out 
a coordinated strategy and assess its outcomes. I ask my 
colleagues on both sides of the aisle to join me in calling on 
the Administration to fill the crucial post of Ambassador-at-
Large for Global Women's Issues.
    Let's come together to pass this legislation with a 
resounding bipartisan vote so that we can demonstrate our 
Nation's commitment to securing a future of equity and dignity 
for girls and women across the globe. And with that I yield 
back, Mr. Chairman.
    Mr. Engel. Thank you, Ms. Wild.
    Mr. Curtis.
    Mr. Curtis. Thank you, Mr. Chairman. I would like to 
associate myself with so many of the comments made today, 
particularly those dealing with the Armenian vote that we took 
yesterday as well as those that have highlighted the bipartisan 
nature of these bills before us today. It is a pleasant moment 
to have in an otherwise stormy environment that we are in and I 
appreciate especially the leadership of the chairman and the 
ranking member. I do not think we get these types of bills 
without the support and the example of both of you and thank 
you for that example.
    I would also like to thank my colleagues for their support 
of the TAIPEI Act. It is an honor for me to put this bill 
forward and I hope it is a very clear message to our friends in 
Taiwan that that friendship is reciprocated and that we 
appreciate their friendship over the many decades.
    Finally, I would like to be so bold as to speak for all of 
us here today in appreciation for the many men and women behind 
us and the staff that function both on this committee and in 
our offices. Clearly, we do not get 18 bills before us today 
without the hard work of many, many people and I would like to 
give a shout-out to especially those in my office who have 
worked so hard on this and many other bills and appreciate 
their service which is frequently out of the spotlight. And 
with that, Mr. Chairman, I yield my time.
    Mr. Engel. Thank you, Mr. Curtis.
    Ms. Spanberger.
    Ms. Spanberger. Thank you, Mr. Chairman. The United States 
has long been responsible for the groundbreaking achievements 
of the digital age. However, as we and our allies continue to 
build and develop 5G and future generation systems and 
infrastructure across the U.S. and with our allies abroad, the 
risks of foreign-produced and controlled equipment and systems 
becomes an even greater threat.
    The former chairman of the Joint Chiefs of Staff, General 
Joseph Dunford, called the potential risks of a Chinese-built 
5G network ``a critical national security issue.`` And NATO's 
Cooperative Cyber Defence Centre of Excellence assessed that 
the Chinese from Huawei's technology could be exploited by 
China to engage in espionage, monitor foreign corporations and 
governments, and support Chinese military operations.
    With my colleague, Representative Rooney from Florida, and 
our colleagues of both parties here in the House and in the 
Senate, the Secure 5G and Beyond Act would require the 
President to develop an unclassified interagency strategy to 
ensure the security of next generation mobile 
telecommunications systems and infrastructure in the United 
States and to assist our allies and strategic partners in doing 
the same.
    The strategy would also focus on protecting the 
competitiveness of U.S. companies, the privacy of U.S. 
consumers, and the integrity of international standard-setting 
bodies against political influence. The rollout of rural 
broadband internet access is one of my top priorities for my 
district in central Virginia, but as we work to achieve faster 
internet speeds and wider connectivity, this legislation would 
make sure that we have a plan to deliver innovative technology 
to U.S. consumers, compete with China, and prevent foreign 
influence in 5G networks.
    I want to thank Chairman Engel, Ranking Member McCaul for 
ensuring that this strategically important bill is considered 
in the Foreign Affairs Committee and for their leadership. And 
I want to thank the members of this committee in proving that 
there is bipartisan support for safeguarding America's access 
to the next generation of telecommunications. I encourage my 
colleagues to support this bill and I yield back.
    Mr. Engel. Thank you, Ms. Spanberger.
    Is there anyone on the Republican side that wishes to 
speak?
    OK, if not, then Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman and Ranking 
Member McCaul, for your good work and staff on this package of 
bills that will move en bloc and I obviously intend to support 
them. I would like to speak specifically though on House 
Resolution 189, recognizing the importance of sustained United 
States leadership in accelerating global progress against 
maternal and childhood malnutrition in supporting the United 
States efforts with the Agency for International Development 
commitment to global nutrition through this multi-sectoral 
nutritional strategy.
    As a third-generation farmer and a chair of the 
Subcommittee on Livestock and Foreign Agriculture on the House 
Ag Committee, I want to state that I think what we all know 
intuitively, but maybe do not think about often enough in that, 
is that food is a national security issue. It always has been. 
We have been fortunate in this country to do so well in the 
production of food and fiber, every night to be able to put it 
on America's table for healthy nutrition for own country.
    But even then, we have food deserts in the United States 
and we have folks, we have kids that go to school hungry, 
notwithstanding the wealthiest nation in the world. The fact of 
the matter is, is that we are trying to address our own 
nutritional issues here in this country, but we also have a 
responsibility of the world's largest producer of agricultural 
products to provide a leadership role in malnutrition that is 
taking place around the world that leads to instabilities in 
countries around the world. Couple that with climate change and 
other factors that are impacting the ability of people just to 
have a daily diet in which they hope that they can subsist and 
sustain themselves.
    So I am proud of this resolution because it attempts to 
address those issues of malnutrition around the world. It 
attempts to address the fact that when you have those kinds of 
conditions that exist you have a situation in which instability 
obviously is a factor. And you couple that with the notion that 
climate change is going to make that security of food in many 
countries throughout the world that have these challenges, it 
is something that we need to keep our eyes focused on.
    Food is a national security issue not only here but around 
the world. As a member of the Ag Committee and this committee I 
want to make sure that we continue to work across the party 
lines to ensure--and the committees to highlight the importance 
of international food and nutrition work and this resolution 
does that. To sustain access to nutritional foods is a 
fundamental building block, I think, for stability around the 
world, and growth. Children, we know, with enough food can move 
in a much more sufficient way. Healthy meals mean our medical 
aid has a better shot at working because a lot of nutrition 
issues reflect to medical and healthcare standards.
    So I am happy to support this resolution and look forward 
to continuing to engage with members of this committee and the 
House Ag Committee in a bipartisan fashion to ensure that 
international food and nutritional issues are part of our own 
efforts to not only maintain our own national security here at 
home, but to try to provide national security around the world 
in light of the factors and the challenges we face with climate 
change and with the--fact is, is that the planet turned seven 
billion people 2 years ago.
    By the middle of this century it is estimated that there 
will be nine billion people on the planet. And how you feed 
those people will determine whether or not in many ways, nation 
States can live amicably together in a peaceful fashion, and 
therein lies the challenge. I yield back the balance of my 
time.
    Mr. Engel. Thank you, Mr. Costa.
    Are any other members seeking recognition?
    All right, hearing no further requests for recognition, 
then, without objection, the committee will proceed to consider 
the noticed items en bloc. Without objection, each measure is 
considered as read and the amendments to each are considered as 
read and are agreed to.
    The question occurs on the measures en bloc, as amended, if 
amended.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the chair the ayes have it. The measures 
considered en bloc are agreed to and, without objection, each 
measure is ordered favorably reported, as amended, if amended. 
And each amendment to each bill shall be reported as a single 
amendment in the nature of a substitute. Without objection, 
staff is authorized to make any technical and conforming 
changes.
    And this concludes our business today. I thank Ranking 
Member McCaul and all of the committee members on both sides 
for their contributions and assistance with today's markup. The 
committee stands adjourned.
    [Whereupon, at 11:05 a.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                
                                



                                 <all>
</pre></body></html>
